2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

C@QCKLE

|

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-76

DEPUTY SHERIFF MARTIN MARQUARDT,

Petitioner,
v.
WILLIAM FLETCHER,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2970 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of September, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

dees 6M» Quttawh, hale

Affiant 38738
